Nos. 20-429, 20-454, 20-539

 

 

IN THE

Supreme Court of the United States

AMERICAN MEDICAL ASSOCIATION, ET AL.,
Petitioners,
v.

NorRIs COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.

On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit

OREGON, ET AL.,
Petitioners,
Vv.
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.

On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit

 

NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Petitioners,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondents.

 

On Writ of Certiorari to the United States Court of Appeals
for the Fourth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Motion for Leave
to File a Supplemental Brief in Support of Intervention on behalf of the American
Association of Pro-Life Obstetricians & Gynecologists, the Christian Medical and
Dental Associations, and the Catholic Medical Association contains 914 words and
the Supplemental Brief contains 1,759 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).

Executed on March 18, 2021.

 

440 First Street NW
Suite 600

Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
